<html>
<title> - INTERNET PRIVACY: THE IMPACT AND BURDEN OF EU REGULATION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
        INTERNET PRIVACY: THE IMPACT AND BURDEN OF EU REGULATION 

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON COMMERCE, MANUFACTURING, AND TRADE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 15, 2011

                               __________

                           Serial No. 112-86



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

73-961 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         JAY INSLEE, Washington
CHARLES F. BASS, New Hampshire       TAMMY BALDWIN, Wisconsin
PHIL GINGREY, Georgia                MIKE ROSS, Arkansas
STEVE SCALISE, Louisiana             JIM MATHESON, Utah
ROBERT E. LATTA, Ohio                G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington   JOHN BARROW, Georgia
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            DONNA M. CHRISTENSEN, Virgin 
BILL CASSIDY, Louisiana              Islands
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                 _____

           Subcommittee on Commerce, Manufacturing, and Trade

                       MARY BONO MACK, California
                                 Chairman
MARSHA BLACKBURN, Tennessee          G.K. BUTTERFIELD, North Carolina
  Vice Chairman                        Ranking Member
CLIFF STEARNS, Florida               CHARLES A. GONZALEZ, Texas
CHARLES F. BASS, New Hampshire       JIM MATHESON, Utah
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan
LEONARD LANCE, New Jersey            EDOLPHUS TOWNS, New York
BILL CASSIDY, Louisiana              BOBBY L. RUSH, Illinois
BRETT GUTHRIE, Kentucky              JANICE D. SCHAKOWSKY, Illinois
PETE OLSON, Texas                    MIKE ROSS, Arkansas
DAVID B. McKINLEY, West Virginia     HENRY A. WAXMAN, California (ex 
MIKE POMPEO, Kansas                      officio)
ADAM KINZINGER, Illinois
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)

                                  (ii)



                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Mary Bono Mack, a Representative in Congress from the State 
  of California, opening statement...............................     1
    Prepared statement...........................................     4
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, opening statement.....................     6
Hon. Pete Olson, a Representative in Congress from the State of 
  Texas, opening statement.......................................     7

                               Witnesses

Nicole Y. Lamb-Hale, Assistant Secretary for Manufacturing and 
  Services, International Trade Administration, Department of 
  Commerce.......................................................     7
    Prepared statement...........................................    10
Catherine Tucker, Douglas Drane Career Development Professor in 
  IT and Management and Associate Professor of Marketing, MIT 
  Sloan School of Management.....................................    22
    Prepared statement...........................................    24
Stuart K. Pratt, President, Consumer Data Industry Association...    34
    Prepared statement...........................................    36
Paula J. Bruening, Vice President, Global Policy, Center for 
  Information Policy Leadership, Hunton & Williams, LLP..........    52
    Prepared statement...........................................    54
Peter P. Swire, C. William O'Neill Professor in Law and Judicial 
  Administration, Moritz College of Law, The Ohio State 
  University.....................................................    65
    Prepared statement...........................................    67

                           Submitted Material

Article, ``Companies in confusion over `cookie' laws,'' by Maija 
  Palmer for Financial Times, May 25, 2011, submitted by Mrs. 
  Blackburn......................................................    81
Article, ``Dutch cookie law may lead to online exodus,'' by Matt 
  Steinglass for Financial Times, June 21, 2011, submitted by 
  Mrs. Blackburn.................................................    83
Letter, dated September 14, 2011, from Julian Knott, Head of 
  Secretariat, Trans Atlantic Consumer Dialogue, to subcommittee 
  leadership, submitted by Mr. Butterfield.......................    87


        INTERNET PRIVACY: THE IMPACT AND BURDEN OF EU REGULATION

                              ----------                              


                      THURSDAY, SEPTEMBER 15, 2011

                  House of Representatives,
Subcommittee on Commerce, Manufacturing, and Trade,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 11:18 a.m., in 
room 2322, Rayburn House Office Building, Hon. Mary Bono Mack 
(chairman of the subcommittee) presiding.
    Members present: Representatives Bono Mack, Blackburn, 
Stearns, Bass, Harper, Lance, Olson, McKinley, Pompeo, 
Kinzinger, and Butterfield.
    Staff present: Charlotte Baker, Press Secretary; Andy 
Duberstein, Special Assistant to Chairman Upton; Brian 
McCullough, Senior Professional Staff Member, CMT; Jeff 
Mortier, Professional Staff Member; Gib Mullan, Chief Counsel, 
CMT; Shannon Weinberg, Counsel, CMT; Tom Wilbur, Staff 
Assistant; Alex Yergin, Legislative Clerk; Michelle Ash, 
Minority Chief Counsel; Felipe Mendoza, Minority Counsel; and 
William Wallace, Minority Policy Analyst.
    Mrs. Bono Mack. The subcommittee will now come to order. 
Good morning. Few things today have impacted more people than 
the Internet. Over the past decade, there has been a huge 
explosion in the use of the Internet. It has changed the way we 
work, shop, bank and live. But it has also resulted in a new 
dangerous contagion of sorts involving piracy threats such as 
malware, spyware, phishing, pfarming, and a long list of 
assorted computer cookies. The time has come for Congress to 
take these growing threats more seriously.
    The chair now recognizes herself for an opening statement.

 OPENING STATEMENT OF HON. MARY BONO MACK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Today, as we continue our series of hearings on Internet 
privacy, we are going to take a close look at the impact of 
regulations on commerce, consumers and businesses. As chairman 
of the subcommittee, I am guided by one critically important 
question: When it comes to the Internet, how do we balance the 
need to remain innovative with the need to protect privacy?
    As someone who has followed this issue very closely over 
the years and someone who, frankly, remains skeptical right now 
of both industry and government, I will continue to keep an 
open mind as to whether new legislation or regulations are 
warranted. But let me be clear about one thing. To date, I do 
not believe industry has proven that it is doing enough to 
protect American consumers while government, unfortunately, 
tends to overreach every time it gets involved in the 
marketplace. From my perspective, there is a sweet spot between 
too much regulation and no regulation at all. My goal is to 
find that sweet spot.
    Today, the Internet pretty much remains a work in progress, 
even though it serves billions of users worldwide and while e-
commerce in the United States will top $200 billion this year 
for the first time, there is still a Wild, Wild West feel to 
cyberspace, leaving many consumers wondering whether there is a 
sheriff in town or whether they are completely on their own 
when it comes to protecting themselves and their families.
    In just 25 years, the Internet has spurred sweeping 
transformative innovations. It has became embedded in our daily 
lives, and it has unlimited potential to effect positive social 
and political change. Yet every single day, millions of 
Americans are subject to privacy threats. Most of them by and 
large are seemingly innocent, such as the collection of 
information about consumer buying habits, but some of them are 
malicious and criminal, often involving online theft and fraud.
    This subcommittee has a responsibility and a unique 
opportunity as well to ferret out those differences and to do 
everything we can to keep the Internet free while keeping 
consumers free, to the extent possible, from widespread private 
abuses.
    I for one do not subscribe to the theory that privacy is 
dead, get over it. There are smart ways to protect consumers 
and to allow e-commerce to continue to flourish. That is the 
sweet spot we should be searching for in all of our hearings.
    Additionally I will continue to work with Members on both 
sides of the aisle to secure passage this year of the SAFE Data 
Act, which will provide American consumers with important new 
privacy safeguards.
    Today we are taking a close look at the EU's Data Privacy 
Directive, first adopted on October 24, 1995. The EU model is 
one of the largest regulatory regimes in the world. I believe 
this hearing will be instructive, allowing us to better 
understand some of the lessons learned over the past 15-plus 
years. Clearly there have been some unintended consequences as 
a result of the directive which have proven problematic for 
both consumers and businesses.
    The purpose of the directive is to harmonize differing 
national legislation and data and privacy protections within 
the EU while preventing the flow of personal information to 
countries that, in the opinion of EU regulators, lack 
sufficient privacy protections. But as we will learn today, 
there has been no shortage of unintended consequences. In a way 
you could say that the EU directive at some point crossed paths 
with Murphy's law--anything that can possibly go wrong, does.
    Unfortunately, in all too many cases it has gone wrong for 
American businesses trying to navigate these tricky 
regulations. The directive requires all EU member states to 
enact national privacy legislation which satisfies certain 
baseline privacy principles ranging from notice, to consent, to 
disclosure, to security. And while these principles are the 
basis for the directive, each EU member state is responsible 
for incorporating these articles into its own national privacy 
laws. This in turn has led to inconsistent regulatory regimes 
throughout the EU and has created serious problems for American 
multinational firms.
    Making matters worse, compliance within the EU remains 
fractured, with several member states not fully complying with 
the directive. This has led to sporadic and inconsistent 
enforcement, with a seemingly disproportionate number of 
American companies targeted for compliance violations.
    Let me be clear. My purpose in holding this hearing is not 
to point fingers. Instead, my goal is to point to a better way 
to promote privacy online and to promote e-commerce. In the end 
this will benefit both American consumers and American 
businesses and send a strongly held belief all across America 
that the Internet should remain free.
    [The prepared statement of Mrs. Bono Mack follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Bono Mack. And with that, the gentleman from North 
Carolina, Mr. Butterfield, the ranking member on the 
Subcommittee on Commerce, Manufacturing, and Trade, is now 
recognized for 5 minutes for his opening statement.

OPENING STATEMENT OF HON. G.K. BUTTERFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Butterfield. Thank you, Chairman Bono Mack. Thank you 
for holding today's hearing on the European Union's efforts to 
protect consumer data. And I especially want to thank the 
witnesses from the two panels, starting with the Assistant 
Secretary and the four witnesses on Panel 2. Thank you very 
much for your testimony today.
    The genesis of EU-wide data protection regulation is the 
Data Protection Directive. And the directive requires the 
enactment of several principles into the laws of each EU member 
country. Those principles included granting people access to 
their personal information, disclosure of which actors are 
collecting personal data, affirmative consent prior to personal 
data being shared with a third party and personal data held by 
an actor be protected through reasonable security safeguards 
among other things. This directive along with the subsequent e-
privacy directive have provided broad and strong privacy 
protections for citizens of the European Union member 
countries.
    I commend the EU for recognizing the need to provide 
baseline privacy policies. Nonetheless, the EU is essentially 
an association of 27 countries. The point of any EU directive 
is to standardize the laws of all member countries so they can 
function as one economic market. The point is not to burden 
business. It is just the opposite. It is to create a unified 
and smooth running market across Europe by bringing the laws of 
each member country closer together.
    But enactment, administration and enforcement of those laws 
remain the responsibility of each individual country. For 
business that have to navigate the laws of these 27 different 
countries, some regulations can feel pointless, some paperwork 
and record keeping burdensome, and some enforcement actions 
unfair.
    I am hopeful that this hearing this morning which reviews 
the European model will explore both the negatives and the 
positives of that system. Studying the privacy regimes of other 
countries can provide valuable lessons for us. Then we must 
come together to develop a national privacy policy that both 
protects consumers while promoting economic growth and 
innovation. That is why it is imperative that we work in a 
bipartisan fashion to make that happen.
    Madam Chairman, I am confident that we can and will do this 
together.
    I know that this hearing is the second of a series that we 
will have regarding privacy. I look forward to continuing this 
important conversation, so we can move forward on crafting a 
long overdue and well-considered national privacy policy.
    Again, thank you to the witnesses. Thank you, Madam 
Chairman. I yield back.
    Mrs. Bono Mack. I thank the gentleman.
    And under the rules of the committee Chairman Upton has 
yielded his 5 minutes to me, and at this time I would like to 
yield 1\1/2\ minutes to the gentleman from Texas, Mr. Olson, 
for his opening statement.

   OPENING STATEMENT OF HON. PETE OLSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Olson. I thank the chairman for holding another 
important hearing on Internet privacy. America and Europe have 
very differing viewpoints toward the protection of personal 
data on the Internet. Our friends in the European Union believe 
that privacy is a fundamental human right and that government 
should be tasked with protecting and regulating personal data. 
By contrast, the U.S. approach to privacy is a sector-by-sector 
combination of legislation and industry self-regulation.
    We favor a more balanced approach, recognizing personal use 
of data and sharing while maintaining reasonable safeguards to 
prevent abuses. With millions of Americans out of work and our 
economy struggling, the last thing we need to do is to look 
toward Europe for guidance for new privacy regulations. 
Instead, we should use today's hearing to look at how the EU's 
overburdensome privacy laws have negatively affected the 
European Union economy and how we can avoid similar pitfalls 
here at home as we continue to explore whether privacy 
legislation is needed in Congress.
    I thank the chairman. I yield back the balance of my time.
    Mrs. Bono Mack. I thank the gentleman and seeing there are 
no other members present to make an opening statement, we will 
move to the panels. So we do have two panels of witnesses today 
joining us. On our first panel we have the Honorable Nicole 
Lamb-Hale, Assistant Secretary for the International Trade 
Administration.
    Assistant Secretary Lamb-Hale, good morning. Again, thank 
you very much for coming. You will be recognized for 5 minutes, 
and to help you keep track of time there are lights and timers. 
And as you will suspect, the yellow light means either hurry up 
and hit the gas or slam on the brakes. But either way, you may 
begin your statement for 5 minutes. Thank you.

   STATEMENT OF NICOLE Y. LAMB-HALE, ASSISTANT SECRETARY FOR 
MANUFACTURING AND SERVICES, INTERNATIONAL TRADE ADMINISTRATION, 
                     DEPARTMENT OF COMMERCE

    Ms. Lamb-Hale. Madam Chair Bono Mack, Ranking Member 
Butterfield, and distinguished committee members, thank you for 
the opportunity to testify about online privacy and the impact 
the European Union's legal framework for data protection has on 
U.S. companies doing business in one or more of the EU member 
states.
    In my capacity as Assistant Secretary for Manufacturing and 
Services in the International Trade Administration, I will 
outline the approaches taken by the EU and the United States 
with respect to commercial data protection, describe the impact 
that the EU framework has on U.S. companies and explain what 
the U.S. Department of Commerce is doing to facilitate 
unencumbered transatlantic trade.
    The EU and the U.S. share common goals in desiring to 
protect individuals' privacy while pursuing economic growth to 
increase trade and investment and by supporting Internet 
innovation. The EU directive on the protection of individuals 
regarding the processing of personal data and the free movement 
of such data was issued by the European Parliament and the EU 
Council in 1995 and is currently under review.
    The EU directive functions as a baseline for EU member 
states and allows them to adopt more stringent national 
protections. In the U.S., the protection of individual privacy 
is deeply embedded in law and policy.
    In addition, voluntary multi-stakeholder policy development 
complements this framework. This framework has encouraged 
innovation and provided many effective privacy protections. But 
certain key American players in the Internet, including online 
advertisers, cloud computing service providers, providers of 
location-based services and social networking sites, operate in 
sectors without specific statutory obligations to protect 
information about individuals. Because of this, the Obama 
administration is advocating for stronger consumer protection 
in the online environment.
    In the international context, the EU directive imposes 
limitation on cross border data flows to countries whose legal 
frameworks do not meet the adequacy requirements of the 
directive as determined by the European Commission, or the EC, 
which is the executive arm of the EU.
    In 1998, the Department embarked on a 2-year negotiation 
with EC aimed at devising ways for U.S. companies to continue 
doing business with firms in the EU without unnecessarily 
burdensome obligations being imposed on their activities. The 
result was the U.S.-EU Safe Harbor Framework, which the EC 
deemed adequate in a July 26, 2000, finding.
    The framework remains in force today and is administered by 
the International Trade Administration on behalf of the United 
States. It is a voluntary arrangement that allows U.S. 
commercial entities to comply with the framework principles and 
publicly declare that they will do so.
    When the Safe Harbor Framework was launched, four companies 
self-certified their compliance to the program. Today nearly 
3,000 companies of all sizes belong, and more than 60 new 
members are added each month. This service has enabled small- 
and medium-size enterprises to provide a range of value-added 
products and services to EU clients and citizens without the 
expense of hiring European legal counsel to comply with the 
EU's legal framework. An estimated half-trillion dollars in 
transatlantic trade is facilitated by the Safe Harbor 
Framework.
    Some large U.S. multinational corporations have chosen 
alternative means of complying with the directive, but these 
have proven to be costly and time consuming.
    For example, large, U.S.-based multinational corporations 
have chosen to use binding corporate rules, or BCRs, which 
permit global intracorporate data if the corporation's 
practices for collecting, using and protecting that data are 
approved by the data protection authorities in the EU.
    Despite recent efforts to streamline the approval process, 
the cost and time associated with obtaining approval of BCRs 
are substantial. While the Safe Harbor Framework has proved 
itself to be valuable in facilitating transatlantic trade, it 
is not a perfect solution for all U.S. entities. Sectors not 
regulated by the FTC, such as financial services, 
telecommunications and insurance, are not covered by the 
framework because their regulators were not part of the 
negotiations.
    Generally speaking, the biggest problems U.S. companies 
face with regard to navigating the privacy landscape in Europe 
include, one, the significant resources that must be allocated 
to comply with these regulations that they are not in the Safe 
Harbor; two, several EU member states implement the EU 
directive differently so U.S. firms must comply with a variety 
of requirements in as many as 27 member states, and; three, 
different EU member state regulations create legal uncertainty, 
which complicate U.S. companies' efforts to plan for the 
future.
    The Department continues to engage with the EU and its 
member states in discussions on how we can allow unimpeded data 
flows while at the same time respect each other's laws and 
values. The Department has been engaged in extensive 
conversation with EU data protection officials at all levels 
during the more than 10 years since the EU directive entered 
into force. These interactions have been designed to convey to 
the EU that the U.S. legal framework, while structured 
differently, is as robust as the EU's framework for protecting 
individuals' privacy.
    Thank you for the opportunity to explain how the EU's 
privacy and data privacy framework relates to the commercial 
interests of the U.S. and to explain what the Department of 
Commerce is doing to help U.S. companies navigate the 
regulations in the EU.
    I look forward to any questions you may have.
    [The prepared statement of Ms. Lamb-Hale follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Bono Mack. Thank you very much, Dr. Lamb-Hale, for 
your statement as well as for your insight into the issue of 
Internet privacy. And I would like to now recognize myself for 
the first 5 minutes of questions.
    And you testified that our current approach to privacy has 
encouraged innovation and provided many effective privacy 
protections. Conversely, a number of studies have suggested 
that EU's approach has actually stifled its Internet economy. 
Why should we move toward a regulatory approach that has proved 
to hold back the Internet sector in that particular region?
    Ms. Lamb-Hale. Well, certainly we should not work towards 
an approach that is exactly like the EU's approach. I think it 
is important to recognize that we need to have a regime that 
really is flexible enough to take into account changes in 
technology advancement. The privacy framework that we have in 
the United States is really about 40 years old, and it doesn't 
really take into account from a general standpoint principles 
that can be readily applied to changing technology. And so what 
we need to do, I think, is to look at the EU example and really 
work to develop a baseline privacy policy that really provides 
principles that, again, are flexible, that don't supersede or 
override existing privacy policy frameworks that are sector by 
sector, so that we can facilitate trade and we are in a better 
position to ensure that as we negotiate with our allies and 
trading partners around the world that we have a basic 
framework to work from.
    Mrs. Bono Mack. Well, in what ways are Europe's complex 
privacy regimes discouraging U.S. companies from entering 
European markets or affecting their success in those markets 
and do those privacy rules amount to a type of trade barrier?
    Ms. Lamb-Hale. Certainly, I want to talk a little bit about 
our Safe Harbor program, which has helped companies in the 
U.S., almost 30,000 of them, to successfully navigate the EU 
directive by, quite frankly, allowing them to avoid having to 
obtain approval from individual data protection authorities and 
through the Safe Harbor Framework engage in the free flow of 
information across various countries.
    So I think that it is important to look at that as a tool 
that is something that I think has worked very effectively for 
our companies, and as we look at what we can do in the U.S. in 
terms of basic privacy principles, we really need to be sure 
that we are flexible in our approach, that we aren't looking to 
promote certain technological innovations, that we really look 
at principles that can be malleable, quite frankly, so that we 
can ensure that as new applications come on board like mobile 
applications that are not covered by our privacy laws that we 
are able to address those and protect our consumers here and 
really help to promote international trade with our U.S. 
companies.
    Mrs. Bono Mack. Thank you. Professor Swire will testify in 
the next panel that the Safe Harbor, which worked well for many 
years enabling cross border information flow, is not recognized 
by a number of countries that have adopted privacy regimes in 
recent years; for example, India, Latin America, Japan, South 
Korea. Is the ITA working with these countries to have a Safe 
Harbor recognized or to ensure its permanence should the EU 
update a directive? And if so, what has been the reaction of 
your foreign counterparts?
    Ms. Lamb-Hale. Well, certainly, the U.S. Government is 
engaged in multiple discussions with trading partners around 
the world, including during the APEC conference that is going 
on now, looking at how we can work together with our trading 
partners to come up with a regime that really facilitates 
international trade and does not impede it.
    The Safe Harbor--companies who take advantage of the Safe 
Harbor rule or regime are able to take advantage of what are 
called onward transfer principles, which allow them to contract 
with European companies and then instead of just being 
restricted to transferring privacy data between the EU 
countries and the U.S. to also transfer that data to other 
countries.
    People who take advantage of the onward transfer principles 
under the Safe Harbor do have that advantage. They do have to 
meet certain requirements, and the Department is certainly 
happy to help companies understand those principles so they can 
take advantage of them in other countries beyond the EU 
framework.
    Mrs. Bono Mack. Thank you very much. I am going to yield 
back my remaining time, and I now recognize the gentleman from 
North Carolina for 5 minutes for his questions.
    Mr. Butterfield. Thank you, Madam Chairman. Let me begin 
with this, and again, thank you very much for coming in and 
thank you for your testimony and, more importantly, thank you 
for your service to the Department and to the country.
    One issue we are exploring is how privacy legislation would 
affect U.S. firms globally. We have heard from some 
multinational companies that baseline privacy protections in 
the U.S. would help them abroad. In your testimony you 
mentioned the Commerce Department has received comments from 
industry who say that an enhanced U.S. privacy framework could 
reduce barriers and compliance costs for U.S. companies in 
international markets.
    Can you briefly describe some of these comments and discuss 
whether you agree that U.S. firms could see a benefit abroad if 
we enacted legislation here?
    Ms. Lamb-Hale. Yes. Thank you very much, Mr. Butterfield.
    It is important as we look at our global competitiveness 
that we have a framework, a set of basic principles that can be 
found in one place, that really speak to the value that the 
United States places on privacy protection. We certainly place 
a lot of value on that, and I think that the world knows that. 
But in order to really discover our principles you have to 
parse through a number of different pieces of legislation by 
sector to really get the sense of what the privacy protection 
regime is like in the United States.
    And so as a result, as we enter into negotiations with our 
trading partners, it would be helpful, and I think it would 
help the competitiveness of our businesses, if we had baseline 
consumer privacy protections, principles that are flexible and 
that take into account really the changing economy, the 
changing technologies, so that when we go in we don't have to 
have a situation where our service providers who are engaging 
in trade with the EU and with other countries are impeded 
because those countries are concerned about our data privacy 
regime.
    Mr. Butterfield. So you are saying that this baseline 
legislation could address or alleviate some of the concerns 
that EU countries have raised regarding our firms?
    Ms. Lamb-Hale. I think so. I think so, Mr. Butterfield. I 
mean certainly through the Safe Harbor Framework we have been 
able to help our businesses navigate very successfully the EU 
directive. But I think going forward and as we look at our 
negotiations with multiple countries, including through our 
APEC negotiations and our work with the OECD and others, I 
think it is important that if we have our privacy principles in 
one place, just as the EU does, quite frankly, through their 
directive, if we have one document as opposed to multiple 
documents that you have to parse through to really get the 
sense of what our basic principles are, I think that our 
companies will be more competitive globally.
    Mr. Butterfield. Well, let me ask you to speak to your 
agency specifically. Would a baseline U.S. privacy law help 
your agency as it negotiates with non-European countries?
    For example, we have heard fears that some Asian countries 
are looking to the EU as they draft their first privacy laws. 
Would having a U.S. law in place change that dynamic in any 
way?
    Ms. Lamb-Hale. I think so. I think that often around the 
world because the EU directive is in a single document, so to 
speak, that people look to that as the standard. And I think 
that certainly as we have seen, there are some difficulties 
with the implementation of that directive. It really increases 
the compliance cost of our companies as they trade with the EU 
countries. And so I think to have another model to use in our 
negotiations around the world that really could demonstrate the 
U.S.'s leadership in this regard would be very helpful to the 
global competitiveness of our companies.
    Mr. Butterfield. Thank you. Finally, in your testimony, you 
state that U.S. companies face three major problems with regard 
to navigating the EU privacy landscape. The first one on your 
list is the significant resources that must be allocated to 
comply with these regulations. I understand that companies that 
aren't regulated by the FTC aren't eligible for the Safe 
Harbor. This universe includes financial services, 
telecommunications and insurance companies.
    Help me with that. I don't fully understand it. Can you 
clarify for me, are these companies you refer to as not in the 
Safe Harbor and that have to allocate significant resources to 
comply?
    Ms. Lamb-Hale. Yes. As was mentioned earlier, the Safe 
Harbor is only applicable to companies that are regulated by 
the FTC and also the Department of Transportation. And so to 
the extent that companies are not regulated by those entities, 
they have to look to other methods, including in some cases 
binding corporate rules that they institute that only apply to 
intracompany transfers of data.
    And so to the extent that we have a baseline set of 
principles that would apply across the board that would not 
supersede existing regulatory frameworks that would cover 
financial services and other sectors, but if we have a set of 
baseline principles, I think that it will reduce the compliance 
costs, quite frankly, of our companies around the world as they 
do business, and it is something that we should certainly 
consider. The Obama administration is very supportive of it. We 
have certainly through our green paper--and we are working on a 
white paper that sets forth the framework that we think would 
be helpful to protect both U.S. companies and our citizens.
    I think that as we look to that, it will really help our 
companies to be competitive globally.
    Mr. Butterfield. Thank you. I yield back.
    Mrs. Bono Mack. I thank the gentleman.
    The chair now recognizes Mr. Olson for 5 minutes.
    Mr. Olson. I thank the chair and I want to thank the 
Assistant Secretary for coming today to give your time and your 
expertise. Welcome.
    Ms. Lamb-Hale. Thank you.
    Mr. Olson. I have a couple of questions for you, ma'am.
    According to the Interactive Advertising Bureau, 
advertisement revenues in the United States hit $7.3 billion 
for the first quarter of 2011, a 23 percent increase--23 
percent--over the same period last year. Further, ad revenues 
increased from under $1 billion in 1999 to its current total of 
$7 billion.
    Do you think this type of economic growth could be achieved 
if the U.S. were operating under a EU type privacy regime?
    Ms. Lamb-Hale. No. And we are certainly not advocating that 
the U.S. operate under that kind of a regime. I think the issue 
with the EU privacy regime is that it is applied inconsistently 
across the U.S. or the EU member states, the 27 member states. 
And the goal would be not to do that in the United States. The 
goal would be to come up with basic principles that include 
input from the multiple stakeholders that are concerned about 
these issues and to develop something that is applied uniformly 
and, quite frankly, does not supersede existing regimes. We are 
really, our effort is to plug gaps, gaps that exist in the 
privacy regime that quite frankly could not be anticipated at 
the time that those various laws were enacted because, of 
course, we have had innovation through the Internet and 
generally in the economy.
    So the goal is to have a set of principles that are basic 
principles that, quite frankly, can then be used to assist in 
the development of further innovation and protect our citizens 
and create competitiveness for our companies around the world.
    Mr. Olson. Thank you. And switching gears a little bit just 
talking about the Safe Harbor issue, the FTC recently brought 
its first case alleging that a company did not satisfy the 
requirements of the U.S.-EU Safe Harbor. The Safe Harbor is 
supposed to help U.S. companies compete in Europe, not let the 
European Parliament write our laws for us. What is this 
administration doing to make sure that Safe Harbor is 
protecting U.S. companies?
    Ms. Lamb-Hale. Well, we certainly work with our U.S. 
companies who are a part of the Safe Harbor very closely when 
they have situations within the EU where there are alleged 
violations. We certainly work in a low key fashion because 
often the companies don't want a lot of publicity in this 
regard. So we really do it on a case-by-case basis.
    We feel that the services that we provide companies, the 
education that we provide about the ins and outs of the Safe 
Harbor are helpful to them and we work with them as they come 
to us with situations that they have faced in the EU 
notwithstanding the Safe Harbor Framework.
    Mr. Olson. One final question for you, Assistant Secretary. 
Has the administration performed any type of compliance cost 
analysis for the privacy directive, and if not, do you plan to 
do so?
    Ms. Lamb-Hale. Yes, we do have some general information on 
compliance costs. And I can say to you that it is certainly 
more expensive not to comply than it is to comply. And so what 
we encourage our companies to do is to be engaged and be 
educated about the various regimes. To the extent that they are 
in the Safe Harbor, I think they have a leg up because they are 
able to operate without having to obtain approval from various 
data protection authorities around the EU.
    But we certainly work with the companies to ensure that 
they are educated and that we have their costs--while there 
will always be costs associated with operating in other 
countries and in the EU, but their costs are limited.
    Mr. Olson. Thank you for those answers. I yield back the 
balance of my time.
    Mrs. Bono Mack. I thank the gentleman and now recognize the 
gentleman from West Virginia for 5 minutes, Mr. McKinley. And 
he waives. So next we will go to Mr. Harper for 5 minutes.
    Mr. Harper. I will waive.
    Mrs. Bono Mack. And he waives.
    Mr. Stearns for 5 minutes. Mr. Stearns.
    Mr. Stearns. Thank you, Madam Secretary. How are you?
    Ms. Lamb-Hale. I am fine, thank you.
    Mr. Stearns. I think one thing that a lot of us are 
concerned about is that the EU has set up these privacy laws as 
sort of a subterfuge to provide anti-competitive protection for 
the EU, to sort of favor their own businesses.
    Do you sense any sense of that, not overtly but covertly, 
that some of these foreign countries because the U.S. lacks a 
formal privacy law, is using this as a way to protect 
themselves?
    Ms. Lamb-Hale. Well, Mr. Stearns, I don't want to speculate 
on the intent of the EU in their directive.
    Mr. Stearns. Well, maybe instead of speculate, have you 
found that it has sort of been true?
    Ms. Lamb-Hale. I don't know that it is true. I think that 
certainly the problem and the lesson to be learned from the EU 
experience is that having individual member states create their 
own regimes and as they interpret the requirements of the 
directives has increased costs for our companies. It has 
created regulatory uncertainty for our companies who are doing 
trade with the EU.
    So certainly our goal is to work very closely with the EU. 
We have done it over the 10 years since the Safe Harbor was put 
in place, to really work together to come up with an approach 
that really helps both of our interests.
    Mr. Stearns. Do you have any idea what the costs, economic 
impact, any studies that show the dollars that it would cost 
Americans more? I think we have here studies that show the 
economic impact to U.S. companies if such regulations at the EU 
are implemented what it would cost American companies. Do you 
have any studies like that?
    Ms. Lamb-Hale. What I can tell you, sir, that our findings, 
there are findings that have indicated that the average 
compliance costs were $3.5 million but the costs for 
noncompliance were nearly three times higher at $9.4 million. 
And so certainly noncompliance is more expensive.
    Mr. Stearns. Because if they don't comply, their market is 
shut down is what you are saying?
    Ms. Lamb-Hale. Well, I would imagine in the various member 
states there are penalties that are I would imagine would need 
to be paid. There are costs to deal with the, whatever the 
allegations would be in terms of not complying, noncompliance 
with the EU directive as interpreted by the individual member 
states.
    So I don't have an exact number that I could give you per 
year. But I can tell you this, that we do see that there are 
significant compliance costs. It does, it has impacted trade, 
but because of our kind of knowing that back in 2000, when the 
directive was really, when the Safe Harbor Framework was 
accepted by the EC as being adequate and 30,000 of our 
companies now today are part of that framework, it has helped 
those companies to navigate some of these costs.
    Mr. Stearns. When I pick up a magazine and I look at the 
ads and I give it to my son or I give it to other family, they 
all see the same ads. But in the United States if I pick up, if 
I go on the Washington Post Web site, they are often behavioral 
because they have maybe a record of things about me, they have 
some behavioral advertising. They can really selectively decide 
when I pull up the Washington Post that these ads would be more 
interesting to me. So that the advertisers have an incentive to 
have this behavioral advertising. But it is not true in the 
European Union, is that correct?
    Ms. Lamb-Hale. Well, the----
    Mr. Stearns. In other words, the behavioral advertising 
that we allow our companies to selectively accumulate, the 
Googles, the Amazon dot-coms, books and things like Barnes and 
Noble, all of that goes into the mix and gives a behavioral 
opportunity for advertisers to narrow down who they are going 
to advertise. But you can't do that in the European Union, is 
that correct?
    Ms. Lamb-Hale. Well, I can't speak to the various states--
--
    Mr. Stearns. If you don't know, just say yes or no.
    Ms. Lamb-Hale. I don't know the answer with respect to the 
various states because all of the various states have their own 
national laws that interpret the requirements under the 
directives.
    Mr. Stearns. As I understand, the majority of the EU 
states, the 27 of them, you have to opt in to get this 
behavioral advertising? Do you know if that is true?
    Ms. Lamb-Hale. I don't know the answer to that. I can 
certainly get back to you.
    Mr. Stearns. That would be interesting to the chairlady and 
to others to see the 27 States, what they do.
    Now, who is the controlling authority in the European 
Union, or does the data privacy agency of each of the 27 
function independently of the EU? There is no FTC.
    Ms. Lamb-Hale. There is a European Commission, which is the 
entity that has the overarching authority----
    Mr. Stearns. Is that equivalent to the FTC?
    Ms. Lamb-Hale. Roughly. I guess that would be a good 
analogy to draw.
    Mr. Stearns. But you also indicated that each of the 27 
countries do their own thing and so it doesn't seem to be----
    Ms. Lamb-Hale. And that is the problem, that is the lessons 
learned.
    Mr. Stearns. A European preemption here, they can't preempt 
these other 27?
    Ms. Lamb-Hale. Well, it is certain there is a baseline that 
is established by the directive, and each of the member states 
can then enact their own laws. And that is where some of the 
problem comes in and that is a lesson to be learned. That is 
something that we wouldn't want to have in the United States.
    Mr. Stearns. Thank you.
    Mrs. Bono Mack. And the gentleman's time has expired, and 
the chair now recognizes Mr. Pompeo for 5 minutes.
    Mr. Pompeo. Thank you, Madam Chair. Do you have any data, 
Madam Secretary, on how the costs and benefits you describe 
impact different businesses; that is, small business or larger 
U.S.-based businesses or U.S.-based multinational business? Do 
you have any data that suggest how those costs and benefits 
fall for those different types of businesses?
    Ms. Lamb-Hale. I don't have specific data for you. I can 
tell you that we have found that for companies that don't 
participate in the Safe Harbor, there are significant costs 
associated with that. The Safe Harbor is a wonderful program 
because really it is very cost-effective once you establish 
the--show that you have satisfied the requirements to join, it 
is a $200 initial fee and $100 to maintain it each year. 
Companies who don't take advantage of that, both large and 
small, do have more significant costs.
    We can certainly get some information to you, though, to 
kind of break it down by company size if we have that.
    Mr. Pompeo. Thank you very much. Madam Chair, I yield back 
my time.
    Mrs. Bono Mack. I thank the gentleman. And seeing no other 
members present, I again want to thank the Secretary very much 
for being with us today. You have been very gracious with your 
time. I look forward to working with you on this in the future 
and going forward. And again it has been a very insightful 
discussion and thank you for your time.
    Ms. Lamb-Hale. Thank you, Madam Chair.
    Mrs. Bono Mack. Now we will quickly move into the second 
panel. If the second panel could begin taking their seats we 
would like to move along as quickly as possible in hopes of not 
having to run into a series of votes on the floor.
    Thank you all very much. So we have four witnesses joining 
us today in the second panel, our first which is Catherine 
Tucker, Douglas Drane Career Development Professor in IT and 
Management and Associate Professor of Marketing at MIT Sloan 
School of Management. Our second witness is Stuart Pratt, 
President, Consumer Data Industry Association. Our third 
witness is Paula Bruening, Deputy Executive Director and Senior 
Policy Adviser at the Centre for Information Policy Leadership. 
And the final witness this morning is Peter Swire, Professor of 
Law atS Moritz College of Law at the Ohio State University.
    Good morning, still, everyone and thank you very much for 
coming. You will each be recognized for 5 minutes, as you know, 
and I think you know how the lights work. Make sure you 
remember to turn the microphone on before you begin. And I 
would like to begin with Ms. Tucker for 5 minutes--Dr. Tucker--
excuse me--for 5 minutes.

     STATEMENTS OF CATHERINE TUCKER, DOUGLAS DRANE CAREER 
   DEVELOPMENT PROFESSOR IN IT AND MANAGEMENT AND ASSOCIATE 
PROFESSOR OF MARKETING, MIT SLOAN SCHOOL OF MANAGEMENT; STUART 
K. PRATT, PRESIDENT, CONSUMER DATA INDUSTRY ASSOCIATION; PAULA 
    J. BRUENING, VICE PRESIDENT, GLOBAL POLICY, CENTRE FOR 
  INFORMATION POLICY LEADERSHIP, HUNTON & WILLIAMS, LLP; AND 
    PETER P. SWIRE, C. WILLIAM O'NEILL PROFESSOR IN LAW AND 
JUDICIAL ADMINISTRATION, MORITZ COLLEGE OF LAW, THE OHIO STATE 
                           UNIVERSITY

                 STATEMENT OF CATHERINE TUCKER

    Ms. Tucker. Good morning. I want to thank the committee for 
inviting me to speak. I was truly honored. My testimony is 
going to describe research I have done into how European 
privacy regulation has affected the performance of online 
advertising.
    Now, the motivation behind this research is you may have 
many good reasons to want to protect consumer privacy online, 
we also may have many reasons to want to harmonize with our 
European trading partners. However, there is a risk that strict 
regulations can damage the ability of Internet firms that 
support it through advertising and the advertising industry can 
tend to be hurt. Why is this? It is because the business model 
for nonsearch advertising online is really based around the 
usage of data. And so an example of that is say I am a Cadillac 
dealer, it means that I can only, I can choose to just show ads 
to people who have been recently searching car review Web 
sites. And this means I save money because I am not actually 
showing ads to people who are not going to be in the market for 
a car.
    So therefore understanding how limiting data can hurt 
advertisers, I think it makes sense to try and understand what 
is happening in the EU.
    So in my paper, I actually examined the effect of the 
European Privacy and Electronics Communications Directive of 
2002, sometimes known as the e-Privacy Directive. And what this 
e-Privacy Directive did was it clarified how the more general 
principles of 1995 were applied to the Internet and 
communications sector.
    Now several provisions of this e-Privacy Directive limited 
the ability of companies to track user behavior online and then 
use the data for the kind of behavioral targeting that was 
inherent in my Cadillac dealership example.
    The data I used in my study was collected by a marketing 
research company over a decade and it is based around the gold 
standard of social science research, which is a randomized 
trial, much like used in medicine where some people see an ad 
and some people do not, and to compare how the ad performance 
implied by these randomized trials changed in Europe relative 
to the rest of the world after the implementation of the e-
Privacy Directive.
    This is a large scale study. I used data from 3.3 million 
consumers and over 10,000 online advertising campaigns.
    The first key finding is that the e-Privacy Directive was 
associated with a 65 percent decrease in online advertising 
performance, the advertisers that I studied. This is a sizeable 
decrease, and I think the best way of understanding it is that 
if an ad is not targeted appropriately, consumers online are 
really very good at ignoring it.
    Now I think this is coming up in the questioning earlier, 
what does this 65 percent mean in real terms for American 
businesses? Well, the public policy group NetChoice took the 
estimates of my study to project that EU star regulation could 
cost U.S. businesses $33 billion over the next 5 years. So this 
is obviously a large negative effect.
    But I also want to emphasize the second set of findings. 
And this was how the regulation affected different ads 
differently. And what I saw was that ads on Web sites that had 
content that is not easily matched to a product category, think 
of a news Web site, think of an Internet service site such as 
dictionary.COM, ads on those Web sites, they were the ones that 
were really hurt. And why is that? Well, you really need 
external data in order to target advertising. On the other hand 
ads on travel Web sites, baby Web sites, they kept on working 
as well before and after regulation because you are just going 
to keep on advertising diapers and hotels on these types of Web 
sites.
    The other kinds of ads that were really affected were small 
and unobtrusive banner ads, the kind of ads that I would 
describe as being annoying, the ones that float over your Web 
site when you are trying to read it, those weren't affected. It 
was really the ads that were designed to be informative. And so 
I think this leads to a second set of concerns which means that 
privacy regulation can lead to a set of incentives which means 
that advertisers switch to more intrusive and annoying 
advertising because they can't actually target ads in a 
relevant way, and also that Web site developers might switch to 
more commercial shall we say content in order to target 
advertising by means of the category.
    So thank you, and I look forward very much to your 
questions.
    [The prepared statement of Ms. Tucker follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Bono Mack. Thank you very much, Dr. Tucker.
    Mr. Pratt, you are now recognized for 5 minutes.

                  STATEMENT OF STUART K. PRATT

    Mr. Pratt. Chairwoman Bono Mack and Ranking Member 
Butterfield and members of the committee, thank you for this 
opportunity to testify. I am going to work through a few key 
points. Obviously you have the written testimony for the 
record. And first and most importantly, we must preserve what 
is best about the U.S. marketplace for data flows that we have 
today.
    CDIA members' data and technologies protect consumers and 
they help U.S. businesses to manage risks and empower economic 
opportunity. Whether it is counter-terrorism efforts, locating 
a child who has been kidnapped, preventing a violent criminal 
from taking a job with access to children or the elderly or 
ensuring the safety and soundness of lending decisions, our 
members' innovative databases, software and the analytical 
tools are critical to how we manage risk in this country and 
ensure fairness and, most importantly, how we protect 
consumers.
    The U.S. has a long and successful track record of 
protecting consumers and fostering commerce at the same time. I 
think it is an important balance that we have to continue to 
maintain as we go forward. And, in fact, the United States is 
really at the forefront of establishing sector specific 
enforceable laws regulating uses of personal information of 
many types, and the list is extensive and includes for example 
the Fair Credit Reporting Act, the Gramm-Leach-Bliley Act, the 
Health Insurance Portability and Accountability Act, the 
Drivers Privacy Protection Act, and many more. CDIA believes 
this sector-by-sector approach has not just worked well but has 
ensured that the United States has both a marketplace that puts 
consumers first and one that is the most robust, innovative and 
efficient.
    CDIA's members, however, are global companies and they do 
understand the importance of international engagement and 
dialogue. Our members are the most successful companies in the 
world when it comes to producing data that protects consumers 
and allows for effective risk management which facilitates 
competition. Historical experiences, cultural mores and much 
more drive the individual countries' deliberations about how to 
protect their citizens' data, and this is no less true for us 
here in the United States. Our members respect these 
differences. We engage in regional discussions with 
organizations such as the Asia Pacific Economic Cooperation and 
the European Union.
    Our members have successfully encouraged countries to adopt 
practices that have made the U.S. successful. Just look at the 
last 18 months, for example. Both Brazil and Australia have 
shifted their laws to permit the development of full file 
credit recording systems which will inure benefits to their 
citizens much as the U.S. credit reporting industry has done 
for the last 100 years. This type of constructive engagement 
will continue. It is likely the best approach to managing 
global data flows even as we choose different approaches to how 
we may regulate data flows domestically.
    We must protect our domestic success and weigh consequences 
carefully. Like every other global commerce issue, there is no 
dearth of opinion about how consumer data should be used and 
protected. Because of this one cannot turn to Europe with the 
assumption that their work is a reflection of world opinion.
    There have been many different approaches to establishing 
basic principles for the protection of data, and we list a 
number of examples in our written testimony. Even in Europe the 
Data Protection Directive has been transposed into country 
specific laws which while determined as adequate by the 
European Union are still different.
    A real world example of how this affects commerce can be 
drawn from the credit reporting industry. The credit reporting 
industry in Europe is balkanized. It impinges on data flows 
across countries. It has impinged on the ability for Europe to 
develop a true continental financial services marketplace where 
banks in Germany would compete with banks in France, for 
example.
    So the EU is a less than perfect solution in many different 
ways.
    It isn't new news that Europe and the U.S. differ when it 
comes to data protection. Even our fundamental system of 
enforcement for consumer protection differs. It is our view 
that bringing a European Union style law to the U.S. would 
result in significant increases in private litigation, 
something that Europe doesn't face but which we have as a 
tradition in this country. It is one of the reasons why we take 
it so seriously when somebody says we should look to Europe, 
for example, for the type of structure that we should have here 
in the U.S.
    We have privately enforced laws. We have a tort system that 
encourages private enforcement by individual consumers and 
through class actions. That does not exist in Europe and that 
is a radical difference between how Europe and its legal 
regimes work and how ours work here in the United States.
    It is our view that the U.S. model has worked exceptionally 
well for our citizens and for our economy. We continue to 
support international engagement, regional data flow 
agreements, but also the preservation of our U.S. sector 
specific approach to law because laws resulting from this 
approach are far more likely to respect free speech rights in 
our Constitution. Laws are more likely to be focused and not 
overreaching in a manner that would impinge on innovation.
    Laws are subject to the deliberations and oversight of 
Congress, which is obligated to represent the interests of 
citizens of this country and because decisions about data 
protection will not be an abrogation of congressional authority 
through the establishment of a new Federal regulator with 
regulatory powers that overshadow the legislative authority of 
the Congress itself. History has proven that our approach works 
well.
    I thank you for this opportunity to testify, and I am happy 
to answer your questions.
    [The prepared statement of Mr. Pratt follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Bono Mack. Thank you very much, Mr. Pratt.
    And Ms. Bruening, you are now recognized for 5 minutes.

                 STATEMENT OF PAULA J. BRUENING

    Ms. Bruening. Thank you, Chairman Bono Mack, Ranking Member 
Butterfield, members of the committee. Thank you for the 
opportunity to testify today about the EU directive.
    Privacy and protection of data are values shared by the 
United States and our friends in Europe. Both the EU and U.S. 
guidance about the responsible collection, use, storage and 
sharing of information about individuals is based on trusted, 
relevant, long-established principles of fair information 
practices.
    But the European directive enacted in 1995 has challenged 
in many respects the rapid rate of technological change, the 
emergence of new business models, and the exponential growth of 
the rate in which data is generated and shared around the 
world.
    This dynamic marketplace requires a responsible yet 
flexible approach to data protection. Instead, the directive 
imposes administrative notification requirements on companies 
that often do little to advance privacy protections but that 
place significant burdens on companies.
    It obligates persons responsible for data to notify EU 
member state data protection authorities of the processing of 
personal data. Such notification is required when information 
systems are created and modified and when personal data is 
transferred outside the European Union.
    It requires companies transferring personal data to 
countries outside the EU not considered to have adequate data 
protection to notify the data protection authorities of the 
member states of the transfer and in some cases obtain a prior 
approval. Such approval can take easily 6 months to obtain and 
at the cost of significant resources for the company and the 
data protection authorities.
    This lack of harmonization between 27 member states adds to 
this burden, as each may impose requirements that differ to 
some extent from others, sometimes in contradictory ways, and 
companies must comply with each.
    In many cases, the directive does not take into account the 
global nature of data and the way in which data is collected, 
used, stored and shared. It requires that data only be 
transferred to countries found by the Commission to provide 
adequate protections for personal data. Fewer than 10 countries 
have been found to be adequate. While other legal mechanisms 
are available to support the transfer of data under the 
directive, as we heard earlier today, they are cumbersome.
    Finally, the directive's requirement that organizations 
have a legal basis to process data can impose additional 
burdens without yielding good privacy outcomes. In the United 
States, companies can use data unless they are specifically 
prohibited from doing so. In Europe, by contrast, companies are 
not allowed to process data unless the processing meets one of 
six criteria found in the directive.
    The most significant of these criteria is informed consent 
of the data subject. To obtain consent, companies must specify 
in the privacy policy the purpose for which data will be 
processed. However, the ways in which data can be used evolve 
rapidly and may not be readily foreseen by companies. When data 
holds such broad and unanticipated potential, companies will 
hesitate to specify its criteria for processing for fear of 
limiting their options in the future. Companies instead may 
create broad privacy policies aimed at obtaining permission to 
undertake any data activity they see fit.
    What is at issue is not the value of privacy protection nor 
that of fair information practices. They continue to serve as 
the most respected and trusted foundation for privacy 
protection. What requires our consideration is how quickly the 
fair information practices are applied in this new and rapidly 
changing data environment and how companies and regulators 
faced with the need to make the best possible use of scarce 
resources can be empowered to direct time, funding and 
personnel towards efforts that yield optimal privacy for 
individuals without unduly constraining innovation.
    In a digital age, in an economy driven by data, getting 
privacy protection rights is hard. There are no simple 
solutions. Policy makers, industry leaders, regulators and 
advocates are engaging in discussions here in the U.S. and in 
international forums to develop approaches that serve both 
organizations that collect data and the privacy of individuals. 
Therefore, as this committee continues to explore this issue, I 
encourage you to consider the alternatives developed in these 
ongoing discussions.
    Thank you again for this opportunity, and I look forward to 
answering any questions.
    [The prepared statement of Ms. Bruening follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Bono Mack. Thank you very much, Ms. Bruening.
    And Professor Swire, you are recognized for 5 minutes.

                  STATEMENT OF PETER P. SWIRE

    Mr. Swire. Thank you, Madam Chairman and Ranking Member 
Butterfield, and other distinguished members of the committee. 
Thank you for inviting me to participate today.
    This is an area that has long been of great interest to me. 
I wrote a book on the U.S. and EU privacy laws back in the 
nineties. I was chief counselor for privacy under President 
Clinton and helped to negotiate the Safe Harbor agreement that 
have we heard about today.
    Before turning to my written testimony, just a brief 
comment on the very important research that Professor Tucker 
has talked about today. This is incredibly useful data, but I 
would like you to think about advertising being targeted. We 
could do it even better if we saw every e-mail you saw, every 
text message you ever wrote, every moment-by-moment location 
information. We could target better, but having all of that 
known to the advertisers creates some risks and I think we 
probably would want to have privacy and have good business not 
just maximize how much everybody sees about us.
    In my written testimony there are three points. I will 
focus on the third one today. The first point is that the EU 
Data Protection Directive has deep roots in the United States 
history of privacy protection. The fair information practices 
came from here, and that is what is built into the directive.
    A second point is I have often criticized the EU directive 
in a number of details in my writing, but with that said, the 
European regime has made important contributions to our privacy 
practices. Many of the sensible ways that we self regulate 
today in the United States really grew out of discussions that 
were involved in European regulators, and we have taken the 
best of that in many cases to do good business and good 
privacy.
    The focus of my time today, though, is going to be on jobs 
and U.S. businesses and the effects on those. My point here is 
that support for baseline privacy principles is good business 
and good policy for the United States. If we adopt a ``we don't 
care about privacy'' attitude, that creates major risks for 
American jobs, American exports, and American businesses. Other 
countries could then decide that the U.S. is a noncompliance 
zone, and they can ban transfers of data to the United States.
    Foreign competitors can then use the lack of U.S. privacy 
protections as an excuse for protectionism and then insist that 
all the information processing happen in their countries and 
not here in the United States, where right now we have such an 
important technological edge.
    So I am going to continue with a little more detail on some 
of those job and business effects.
    The Safe Harbor, as was discussed earlier, is a big help 
for transferring data between EU and the United States, and we 
made the European rules much more workable as we negotiated 
that. But the risk of protectionism is growing again. The EU is 
in the midst of a major revision of the directive. They may 
make it substantially stronger in some respects. And as the 
chairman noted, India's privacy laws are coming online now, 
Mexico and most of Latin America are adopting these laws, and 
right now they are copying the European approach. If we had a 
baseline approach in the United States that was simple and easy 
to communicate, I think it would be a lot easier for them to 
copy the U.S. approach or at least for us to have U.S.-style 
principles accepted around the world. If we don't do that, we 
are risking having a very bad model become the practice 
generally.
    Cloud computing is just one industry that gives an example 
of the risks we face here. The Province of British Columbia few 
years ago canceled contracts because they thought sending data 
to the United States wasn't safe enough. There have been 
several discussions in European Parliaments this year that, 
similarly, having databases in the United States is not safe 
enough for the data of European citizens.
    Now, when we have these important information services, 
cloud computing, Internet sales, other U.S. areas of 
leadership, we can't just ignore the rest of the world in this 
case. And here is why. Many of the U.S.-based companies have 
assets in these countries. We have employees in these 
countries. If Germany, which for instance one of the German 
States had a 60,000 euro fine this week about a financial firm 
for affiliate sharing. When the German regulators do this, they 
can go after American companies' assets overseas. We have seen 
that Italy has even gone against a Google employee on a 
criminal basis.
    So we are stuck in a world where they have national 
jurisdiction and national legislation. I think the question 
then is how do we engage, how do we find a way for the United 
States to best have our self-regulatory, our good privacy 
principle, but our nonintrusive approaches, but also explain to 
the rest of the world how to stop this protectionism.
    I think we should maintain our own privacy legal structure. 
Baseline principles I think are the way to go, baseline 
legislation if possible. The risk is that we do so little that 
the rest of the world says we don't do enough at all and shuts 
us out. And I think that is something to avoid.
    Thank you, Madam Chairman.
    [The prepared statement of Mr. Swire follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Bono Mack. Thank you, Professor. I appreciate very 
much all of your testimony, and apologize for always having to 
rush to get it in under 5 minutes. But now I will recognize 
myself for the first 5 minutes of questioning.
    Professor Tucker, to you, in your research how did you 
account for the difference between what European privacy 
regulations say on paper and then how they are actually 
enforced? And what does that difference mean for those who 
would suggest we model U.S. privacy regulations on European 
ones?
    Ms. Tucker. So my study, because it is an empirical study, 
is really a study of how firms interpreted the laws, with all 
their ambiguity, all the lack of clarity, all the uncertainty. 
And when I talk to people about my results, what has been 
really emphasized to me is the extent when laws are written in 
a vague way and people don't really quite know what they mean, 
often counsel do urge the company to take a very conservative 
and cautious approach.
    So I think one way, you know, of understanding that gap is 
if there is a gap between what was intended and what companies 
are doing, it often tends to be conservative, because companies 
obviously do not want the bad publicity associated of being 
found guilty of privacy violations.
    Mrs. Bono Mack. Thank you. In your testimony you state you 
would like to see research that tests elements of a ``do not 
track'' technology, because your research shows some forms of 
consumer choice regarding their privacy can improve advertising 
effectiveness. Can you explain further what you mean?
    Ms. Tucker. Yes. So this is a separate study, where I 
actually looked at online advertising on Facebook. And you may 
remember a year ago Facebook was under a lot of pressure, and 
they actually implemented a whole new series of privacy 
controls. And what we saw is that when we actually gave users 
control over their own privacy and how their personal 
information was being used, that it has actually a large 
improvement in terms of how willing people were to click on 
relatively personalized advertising.
    Mrs. Bono Mack. Thank you. And I kind of have a golden 
question. And I will go to you, Professor, and then let each of 
you take a swipe at this one. What questions do you all think 
need to be answered for us to understand how restrictions on 
data could affect digital media and services? And I will start 
with you, Professor Tucker, on that.
    Ms. Tucker. OK. So I feel--I mean I am constantly 
frustrated by how little empirical research there is out there. 
And as a policymaker, we found it hugely difficult to try and 
say what matters and what doesn't in terms of actually 
affecting consumer response. So I think what we really need is 
more research on trying to understand, well, if we do have to 
have regulation, how can we make it good regulation which 
actually benefits firms and consumers at the same time? Thereby 
through giving trust, encouraging consumers to trust companies, 
and therefore getting some benefits, while hopefully not 
costing firms so greatly.
    Mr. Pratt. You are right, that is a big question. So I 
think the question I would ask, if I was sort of sitting up 
there rather than here, would be how all the innovation here 
that we see on the Internet really is U.S.-based. I think 
Professor Swire is right, we really have the edge as a country. 
It is because of the freedom that we have to have innovated 
that all these innovations are here that are moving around the 
world. But we also know that the Internet, all the free stuff, 
all the free stuff is monetized in some way. It is supported by 
an economy. And I think the key question, which I have heard in 
some other hearings, is so if we are going to strip away a lot 
of what supports, you know, what is the economy that supports 
the way that we interact with the Internet today, what takes 
its place and what is the consequence of a whole different 
system of billing individuals for participating in powerful 
tools, search engines, and so on and so forth? So I think this 
monetizing economy question is sort of fundamentally important.
    But I would certainly agree that go slow and seek empirical 
answers is awfully important as well. So there is no reason to 
rush to some immediate conclusion.
    Mrs. Bono Mack. Thank you. Ms. Bruening?
    Ms. Bruening. Yes. I think it was acknowledged earlier 
today already that so much of what we think about privacy is 
very culturally based, it is based on history, and experience, 
and mores, and we are going to be hard pressed to convince one 
part of the world or another that our way is better. And we 
certainly don't want to adapt their approaches.
    At the same time, global flows of data are critical to our 
economy, to the world economy. They have to be robust in order 
to keep economic growth going. And it is so necessary right 
now. So the question becomes how do we respect these divergent 
ideas about privacy and yet have an interoperable system that 
allows for those data flows? And I think trying to figure out 
how you create that system is going to be really, really 
important.
    I think the other question is, you know, we keep hearing 
about how companies need more flexibility to process data than 
is perhaps allowed for in something like the directive. And 
even in many ways in the kinds of rules and regulations we have 
here in the United States. So again, how do you provide that 
flexibility in a way that also requires that companies assess 
the risks that they are raising for individuals when they are 
using that data, and that they mitigate those risks so that 
they are accountable for the way in which they are using data?
    Mrs. Bono Mack. Thank you. Professor Swire, I apologize. My 
time has expired. But I know that some of my colleagues will 
jump to you. So I would like to recognize Mr. Butterfield for 5 
minutes.
    Mr. Butterfield. Thank you. Dr. Tucker, I thank you for 
your testimony. Obviously, it is very thoughtful. And I 
certainly don't want to make light of your research. And it is 
important research that can and should contribute to our 
decision-making process. But because those who oppose privacy 
legislation have touted it as their rationale for opposition, I 
want to summarize what we know.
    This study looks at a universe of ads that are not very 
effective to begin with. Then it concludes that those not very 
effective ads have become even less effective as a result of 
European countries' efforts to protect consumers' privacy. And 
so we need to certainly continue that conversation.
    A couple years ago, Mr. Swire, the RAND Corporation 
authored a report reviewing the strengths and weaknesses of the 
EU's Data Protection Directive. The directive contains a set of 
data protection principles. Each of the 27 countries then has 
its own set of laws implementing those principles. One of the 
goals of the directive was to set out a framework to bring the 
laws of each individual country closer together so the EU could 
truly function as one market.
    We are talking about 27 different sovereign countries. So 
at the end of the day, there were bound to have been some 
differences, around the edges at the very least, in how they 
interpret and carry out the directive. But the RAND report 
concludes that one of the strengths of the directive is that it 
has harmonized data protection principles, and to a certain 
extent enabled an internal market for personal data. It cites 
as evidence the implementation of legal rules across Europe 
that have greater compatibility than prior to the directive's 
introduction. In other words, the legal rules of each of those 
countries have come closer together than they were prior to the 
directive.
    Professor, can you please comment, if you will, on this 
observation generally? And in particular, can you please 
discuss whether and how this convergence in the legal rules of 
27 countries has actually benefited the U.S. and other 
companies trying to do business in the European Union?
    That is a very comprehensive question. You have a couple 
minutes to respond.
    Mr. Swire. I won't take all your time. Thank you, 
Congressman.
    When the directive was first being considered in the early 
1990s, there were two big goals. One of the goals was to 
protect privacy, but the real driver was the Common Market, 
which is what you were talking about, which is there is 
supposed to be free flow of information between Italy and 
France and Germany, and now all the other countries. And so the 
directive was set up so that the ceiling and floor were 
supposed to be pretty close together. So it wasn't total 
preemption, it wasn't exactly the same everywhere, but if it 
had been a great big difference, now it is supposed to be a 
much, much smaller difference.
    And we know in the United States we face this, your 
committee faces this on preemption for data breach and the 
rest. If the things are pretty darn close, a lot of time 
companies can deal with it. That is what the directive was 
supposed to do. In practice, it probably hasn't always achieved 
that. But that free flow of information within Europe was one 
of the two main goals for creating the whole thing.
    Mr. Butterfield. Thank you. We still have some time. 
Professor, in your testimony you state that prior to 
implementation of the Safe Harbor agreement that you helped 
negotiate, there was widespread perception that American-based 
companies were subject to stricter privacy enforcement in 
Europe than EU-based companies. As U.S. leaders, we, of course, 
hear about the problems faced by our companies in dealing with 
the regulatory regimes of other countries. And we, of course, 
hear complaints about unfair treatment and enforcement. And 
when it is a giant like Microsoft, Google, or Facebook, 
everyone is going to read and hear about it if an EU country 
goes after them.
    Given all of this, sir, some of us might still be under the 
impression that the U.S. companies are treated differently and 
more strictly when it comes to enforcement of EU data 
protection rules. I think you know where I am going with that. 
Please help me with it.
    Mr. Swire. I will try to help, sir.
    Mr. Butterfield. Yes.
    Mr. Swire. So my view is in the early period there was a 
highly visible focus on U.S.-based companies for enforcement. 
The enforcement action this week that I mentioned in Germany in 
the financial area was against a German company, dealing with 
German providers. And over time a far bigger fraction of 
enforcement actions, as I understand it, have been for European 
companies, and not focused on the U.S. We should always look 
for problems with that discriminatory treatment, and we should 
step in when we see it. But the point about discriminatory 
treatment is if we just say we don't care about privacy, it 
strengthens the hand of European enforcers who want to go after 
U.S. companies, because they think they can't trust it when the 
data comes here. So just saying we don't care or we don't do 
that here really raises the risk of focus on the U.S. 
enforcement--enforcement against U.S. companies.
    Mr. Butterfield. So there is some perception of singling 
out of U.S. companies?
    Mr. Swire. My sense is that you know, the home field 
advantage is quite important. I am from Ohio State, and we 
believe in the home field advantage. And you know, this sort of 
thing happens. And the U.S. Constitution has a diversity 
jurisdiction so that if you are out of State you get Federal 
judges to help you.
    So that is a concern. But if we are able to keep showing 
that in the U.S. we do basically a solid job on privacy, then 
that is an enormous answer back to the people who want to be 
protectionist.
    Mr. Butterfield. Thank you. Very helpful. Thank you.
    Mrs. Bono Mack. I thank the gentleman. And the Professor 
would note that the chair is a U.S.C. Trojan grad.
    Mr. Swire. Also a fine team, ma'am.
    Mrs. Bono Mack. Thank you. The chair will recognize Mr. 
Stearns for 5 minutes.
    Mr. Stearns. Thank you, Madam Chair. Dr. Tucker, it just 
seems to me it comes down to that there are two questions here. 
If we don't adopt privacy regulation like the European Union, 
then in a sense we are shut out of their market. And if other 
countries in Latin America and others that are taking the 
European Union as a standard and moving in that direction, then 
we have around us, whether it is Latin America, Europe, we have 
all these countries that are subscribing to the European Union 
model, then in a way we are disadvantaged.
    So that is one question. And the other question is, though, 
that, you know, when you look at it, you know, Google, and 
Twitter, and YouTube, and Facebook, and Groupon, all these came 
because of the innovation here in the United States. It didn't 
come from Europe, it didn't come from Latin America. So if we 
adopt the European Union model that everything has to be opt-
in, then the innovation that comes from behavioral 
advertising--we all agree that financial and health records 
should be protected; that is OK--but some of the behavioral 
advertising works to the benefit of the consumer. Groupon is a 
good example. You can get ads now that it will give you a 
discount on things that you might not have thought of, but it 
is in your behavioral interests. And so, you know, it is caught 
between those two, whether the United States succumbs to the 
European model and loses its innovation, or at the same time 
does the European Union--we just say we are not going to do it, 
and continue our innovation, and who knows what will come up 
besides another Facebook or Twitter?
    So I guess my question is do you believe there is a 
demonstrated harm to consumers from being tracked online for 
the purpose of being served targeted ads?
    Ms. Tucker. OK.
    Mr. Stearns. Amen.
    Ms. Tucker. Amen. OK. So there is three questions embedded 
there.
    Mr. Stearns. This is the only question I have.
    Ms. Tucker. This is the only question.
    Mr. Stearns. Because if you can show from your models or 
your empirical evidence that we are better off with innovation, 
then why don't we convince the Europeans to be like us? Which 
we can't do, but I understand.
    Ms. Tucker. So we have tried to run some initial studies to 
see how customers respond to personalized advertising. We 
haven't seen any behavioral evidence they are navigating away, 
appear to be unhappy of being shown it. Beyond that----
    Mr. Stearns. But can't you say there is substantial 
benefits to consumers from having this model that we have in 
the United States? Wouldn't you say that is true?
    Ms. Tucker. Well, I mean in terms of how many wonderful 
free and innovative services are supported through advertising, 
I mean I would say definitely.
    Mr. Stearns. Let me just go down. Mr. Pratt, do you have a 
comment on this question? Basically, is there a demonstrated 
harm to consumers from being tracked online for the purpose of 
being served targeted ads, in your opinion?
    Mr. Pratt. You know, our world, the CDIA world, is the risk 
management world. But you know, you have no risk management 
decisions if you don't reach the right consumer with the right 
offer at the right time. So it begins with how we reach 
consumers. And in all parts of our industry, even in the CDIA's 
member, consumers are online more than ever before. When 
consumers get free credit reports, they go online to get them. 
So the bottom line is it is desperately important that we have 
very effective mechanisms for connecting consumers with 
products. It empowers businesses. It is a home run, in my 
opinion. So you have got to have it. We do have it. We should 
be really careful about how we do harm to it.
    Mr. Stearns. And you would not favor the European model?
    Mr. Pratt. Well, we don't. You have heard that in our 
testimony. We are unequivocally opposed to importing that.
    Mr. Stearns. All right. Ms. Bruening?
    Ms. Bruening. I have not seen any empirical evidence about 
harm to consumers based on behavioral targeting. What I would 
say, though, is that the way we define harm in the United 
States is fairly circumscribed. We talk about it in terms of 
physical harm, financial harm. I think there is a growing 
recognition that harm may take different forms, that 
reputational harm, I think with the advent of social 
networking, has shown us that there are other harms involved. 
Reputational harm is one of them. I think there is a concern 
amongst consumers about how much data is being collected about 
them and how it is being used, and that there is not enough 
clarity about that.
    So to say, you know, that there has been empirical 
evidence, I have not seen that, but I would not say that there 
is no harm at all if that is--if that is a practice that there 
is not the appropriate assessment of risk and mitigation of 
risk on the part of companies who are engaging in it.
    Mr. Stearns. Professor Swire?
    Mr. Swire. Yes. Is there any harm to consumers? One answer 
is it is a reason to have effective data breach protection.
    Mr. Stearns. The question is more is there demonstrated 
harm to consumers that you have seen?
    Mr. Swire. I think the demonstrated harm comes when there 
is data breaches and all the information about me gets leaked 
out. And then with the identity----
    Mr. Stearns. But that is a security problem, not 
necessarily a privacy problem.
    Mr. Swire. If everything is in the database, there is a 
bigger risk when it gets leaked.
    Mr. Stearns. But if we have a good data security bill, and 
we say to the companies that you have to have a security 
officer, and you have to have it encrypted, and you have to be 
protected, that is different than just having behavioral 
advertising out there in which customers use it to buy things. 
So I am just asking have you found any demonstrated harm, any 
empirical----
    Mr. Swire. I pointed to the biggest harm, which is when it 
leaks out.
    Mr. Stearns. All right. Thank you, Madam Chair.
    Mrs. Bono Mack. Thank the gentleman. And now recognize Mr. 
Pompeo for 5 minutes.
    Mr. Pompeo. I will waive.
    Mrs. Bono Mack. And he waives. And Ms. Blackburn for 5 
minutes.
    Mrs. Blackburn. Thank you, Madam Chairman. And I apologize 
to you and the witnesses for being late to the hearing. I had a 
mandatory meeting that ran long, and I was a little bit 
detained. I do have a couple of articles that I want to submit 
for the record. They are from Financial Times. One is 
``Companies in Confusion Over Cookie Laws'' and the other is 
``Dutch Cookie Law May Lead to Online Exodus.'' And I would ask 
to submit those for the record.
    Mrs. Bono Mack. Without objection.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. Thank you. I think that as Mr. Pratt said 
earlier, most of the innovation that has taken place in the 
digital revolution has come from here in the U.S. And I think 
there is no mistake in what that reason is. And that you can 
look at what is happening with the EU model, and it does cause 
you to back up and say, you know, if our job--if our goal is to 
grow jobs, to expand the virtual marketplace, the virtual 
economy, then we are going to need to continue with a more 
flexible approach and make certain that we are protecting data, 
but that also we are allowing the use of that data in some 
ways.
    I think the lack of implementation and variance in local 
interpretations on this cookie law, from what I have read, 
creates incredible uncertainty. And one of the things we are 
hearing right now from employers is they don't like the amount 
of regulatory uncertainty that is coming out of Washington 
because they don't know what their next step should be. And 
they also don't like the compliance cost, that there is an 
uncertainty built into that also.
    So Mr. Pratt and Ms. Bruening, I would like for you to talk 
for just a little bit about the impact that the uncertainty and 
the rising compliance costs have on business. And then Dr. 
Tucker, as you address that, I want to go back to something 
that Mr. Butterfield was saying. And let's talk about the 
multinational companies and what you are seeing with what the 
application is to them. What is the cost to them? What is the 
lost opportunity cost that is going to be there to those 
multinational companies? And then for your companies that are 
local European companies, how are they going to lose out? So 
Ms. Bruening, to you first, and then to Mr. Pratt, and then to 
Dr. Tucker.
    Ms. Bruening. Thank you. I would say that the biggest 
indication of the concerns of businesses about uncertainty and 
compliance costs is the what we see at the Centre for 
Information Policy Leadership is their continued engagement in 
processes and deliberations internationally that would help to 
create more streamlined approaches to compliance. I think that 
many leadership companies are spending a great deal of time and 
resources engaging in processes at APEC. We are leading an 
international project on accountability that we have 
participants from the EU, North America, and Asia working on 
this with us, trying to figure out ways to make compliance more 
streamlined, to make it more certain, to give companies more 
flexibility, but also provide the appropriate privacy 
protections.
    Mrs. Blackburn. Great. Mr. Pratt?
    Mr. Pratt. I think the greatest uncertainty we could insert 
into the U.S. would be to create an umbrella entity, which is 
really what you have in Europe and in the various European 
Union member countries, and that is a data protection authority 
that essentially by fiat can make any decision about any data 
flow. To me, this is just abrogating the Congressional 
responsibility to legislate. It is empowering a regulator to 
then make decisions about commerce in a way that I just think 
is unhealthy. That kind of uncertainty makes it hard to 
innovate. You don't innovate first. You go to your lawyers and 
say what do you think they are going to say? And then maybe you 
build that product, maybe you don't. Maybe you roll the dice, 
maybe you don't. And I think it begins to impinge on the 
freedom to innovate.
    That is one of the many reasons why we don't think the 
European model is a good one to look at. We are not 
isolationists. We deal with the international dialogues. We 
have members who support these very international dialogues 
that she is referring to. We participated, actually, as a 
private company, as a private trade association in the EU Safe 
Harbor negotiations that took place way back when. We want data 
flows. We want that competition for our U.S.-based companies as 
well. We are global companies. But let's just make sure that we 
don't stifle what has been best.
    Mrs. Blackburn. Dr. Tucker?
    Ms. Tucker. So quickly, as we are out of time, the firms 
that have been really hurt have been the small firms on two 
dimensions. First of all, it is expensive to try and work out 
what these laws mean. Secondly, if you are a small start-up Web 
site, you are trying to get customers to opt in. When they are 
uncertain about whether or not to opt in, it is going to be 
harder for you to get that kind of consent.
    Mrs. Blackburn. Thank you. Yield back.
    Mrs. Bono Mack. I thank the gentlelady, and am happy to 
note it looks like we have concluded the hearing before the 
floor votes. I would like to thank the panelists all very much. 
It is clear that everybody in this room has learned something 
today, and cares deeply about these issues as we move these 
forward.
    This was our second in a series of privacy hearings that we 
will be holding this year. I look forward to our continued 
discussions on how we can best balance the need to remain 
innovative with the need to protect consumer privacy.
    I remind members that they have 10 business days to submit 
further questions for the record. And I ask the witnesses to 
please respond promptly to any questions they receive.
    Mr. Butterfield. Madam Chairman?
    Mrs. Bono Mack. Yes.
    Mr. Butterfield. May I be recognized for the purpose of 
offering a letter into the record, please?
    Mrs. Bono Mack. The gentleman is recognized.
    Mr. Butterfield. I have a letter in my possession from the 
TransAtlantic Consumer Dialogue addressed to the chairman and 
to the ranking member. I ask unanimous consent that it be 
included in the record.
    Mrs. Bono Mack. Without objection.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Bono Mack. And again, the hearing is now adjourned. 
Thank you all very much.
    [Whereupon, at 12:40 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
